-) * > A
i

V

Appendix 1_
Way 7./ '2_d\°1 CTudic^ menrt

tl.

* 1

-*

<3.
■‘v.

United States Court of Appeals
For the First Circuit
f

No. 18-1996
LISA BIRON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge.
Torruella and Kayatta, Circuit Judges.

JUDGMENT
Entered: May 2, 2019
Since time limits in F.R.A.P. 4(a) are jurisdictional and not subject to equitable exceptions,
Bowles v. Russell. 551 U.S. 205, 214 (2007), this court lacks jurisdiction to hear this appeal.
Dismissed.
By the Court:
Maria R. Hamilton, Clerk
cc:
Lisa Biron
Seth R. Aframe

13

V?

c.-

*

'•

x?_
X

Cf

&pper\dU 9_
Hafember V2-j Z02-0 Ord-ec

m

V*

>

u

.

United States Court of Appeals

*

For the First Circuit
No. 18-1996
LISA BIRON,
Petitioner - Appellant,
v.

UNITED STATES,
Respondent - Appellee.

Before
Howard, Chief Judge.
Lynch, Thompson, Kayatta
and Barron, Circuit Judges.
ORDER OF COURT
Entered: November 12, 2020
The petition for rehearing having been denied by the panel ofjudges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and petition for rehearing en banc be denied.
. By the Court:
Maria R. Hamilton, Clerk

cc:

Lisa Biron
Seth R. Aframe

15

V .

*

*

Aqppen.dLtx 3
'Relevant SWVWv Pr^vls^ori
1
TrV\e2fcUSC§ k lol

(Co

T
,v *•
*.

§2107.

Time for appeal to court of appeals

(a) Except as otherwise provided in this section, no appeal shall bring any judgment, order or
decree in an action, suit or proceeding of a civil nature before a court of appeals for review unless
notice of appeal is filed, within thirty days after the entry of such judgment, order or decree.
(b) In any such action, suit, or proceeding, the time as to all parties shall be 60 days from such
entry if one of the parties is—
(1) the United States;
(2) a United States agency;
(3) a United States officer or employee sued in an official capacity; or
(4) a current or former United States officer or employee sued in an individual capacity for an
act or omission occurring in connection with duties performed on behalf of the United States,
including all instances in which the United States represents that officer or employee when the
judgment, order, or decree is entered or files the appeal for that officer or employee.
(c) The district court may, upon motion filed not later than 30 days after the expiration of the time
otherwise set for bringing appeal, extend the time for appeal upon a showing of excusable neglect
or good cause. In addition, if the district court finds—
(1) that a party entitled to notice of the entry of a judgment or order did not receive such
notice from the clerk or any party within 21 days of its entry, and
(2) that no party would be prejudiced,
the district court may, upon motion filed within 180 days after entry of the judgment or order or
within 14 days after receipt of such notice, whichever is earlier, reopen the time for appeal for a
period of 14 days from the date of entry of the order reopening the time for appeal.
(d) This section shall not apply to bankruptcy matters or other proceedings under Title 11.
(June 25, 1948, ch 646, 62 Stat. 963; May 24, 1949, ch 139, §§ 107, 108, 63 Stat. 104, 105; Nov. 6,
1978, P. L. 95-598, Title II, § 248, 92 Stat. 2672; Dec. 9, 1991, P. L. 102-198, § 12, 105 Stat. 1627;
May 7, 2009, P. L. 111-16, § 6(3), 123 Stat. 1608; Nov. 29, 2011, P. L. 112-62, § 3, 125 Stat. 757 .)

uses

1

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

n

t

\

V

•V

Arp^encLvA H
0\eW vdrCour-fe ^Waaioer

18

1_oi?> Cxd&r

A

U^J3HD L,ive CM/ECF - U.S. District Court

v

https://ecf.nhd.circl.dcn/cgi-bin/Dispatch.pl7955444508580462

Orders on Motions
1:16-cv-00108-PB Biron v. USA
CASE CLOSED on 10/02/2017

ADMIN,APPEAL,CLOSED
U.S. District Court
District of New Hampshire
Notice of Electronic Filing
The following transaction was entered on 11/29/2018 at 10:17 AM EST and filed on 11/29/2018
Case Name:
Biron v. USA
Case Number:
l:16-cv-00108-PB
Filer:
WARNING: CASE CLOSED on 10/02/2017
Document Number: No document attached
Docket Text:
ENDORSED ORDER denying [17] Motion to Extend Time to file an appeal. Text
of Order: I deny the motion for the reasons set forth in the government's response. So
Ordered by Judge Paul J. Barbadoro.(vin)

l:16-cv-00108-PB Notice has been electronically mailed to:
Charles J. Keefe

keefe@wbdklaw.com, hackney@wbdklaw.com

SethR. Affame seth.aframe@usdoj.gov, maryellen.mcmahon@usdoj.gov,
USANH.ECFCivil@usdoj.gov, USANH.ECFCriminal@usdoj.gov, USANH.ECFDocket@usdoj.gov
l:16-cv-00108-PB Notice, to the extent appropriate, must be delivered conventionally to:

1 of 1

11/29/2018, 10:17 AM

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 1 of 22

/>-•

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW HAMPSHIRE
Lisa Biron
Case No. 16-cv-108-PB
Opinion No. 2017 DNH 211

v.
United States of America

MEMORANDUM AND ORDER

Lisa Biron was convicted in this court of transporting a
minor with intent to engage in criminal sexual activity, sexual
exploitation of children, and possession of child pornography.
The sole victim of her underlying crimes was Biron's 14 year-old
daughter.
prison.

Biron was subsequently sentenced to 480 months in
She now moves to vacate her sentence pursuant to 28

U.S.C. § 2255, claiming ineffective assistance of counsel.

For

the reasons that follow, I deny Biron's motion.1

I.

BACKGROUND

On January 3, 2013, a federal grand jury returned an eightcount superseding indictment against Biron.

The indictment

charged Biron with one count of transportation of a minor with
intent to engage in criminal sexual activity in violation of 18

1 In this Memorandum and Order, "Doc. No." citations indicate
document numbers in this proceeding's docket, "Trial Doc. No."
citations, however, indicate document numbers in the docket of
the underlying criminal proceedings against Biron, United States
v. Biron, No. 12-CR-140-PB.

Case l:16-cv-Q0108-PB Document 9 Filed 10/02/17 Page 2 of 22

U.S.C. § 2423(a)

(Count 1); six counts of sexual exploitation of

children in violation of 18 U.S.C. § 2251(a)

(Counts 2-7); and

one count of possession of child pornography in violation of 18
U.S.C. § 2252A (a) (5) (B)

(Count 8).

The charges were based on

several videos and one photograph recovered from Biron's
computer that depict R.B. while engaged in sexually explicit
conduct with either Biron or one of two young men: Kevin Watson
or Brandon Ore.
A.

Kevin Watson - Counts One through Five
The events giving rise to Counts One through Five took

place during a trip to Canada in May 2012, where Biron and R.B.
spent the weekend with Kevin Watson.2

Watson was then a

nineteen year-old Canadian national, whom R.B. and Biron
initially encountered on the internet.

Initially, both Biron

and R.B. engaged in sexual activity with Watson over the
internet on a daily basis, through the use of webcams.

Later,

Biron arranged for the three of them to meet in person at a
hotel in Niagara Falls, Ontario, so that both Biron and R.B
could have sex with Watson.

At trial, Watson testified that

Biron had told him prior to the meeting that they "could make a

2 Unless otherwise indicated, all facts hereinafter are taken
from evidence introduced on days two and three of Biron's jury
trial for the underlying criminal proceedings, which took place
on January 9, 2013 and January 10, 2013. See Transcript of
Proceedings Biron, No. 12-CR-140-PB (D.N.H. Sept. 13, 2013)
(Trial Doc. Nos. 52, 53).
2

.!

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 3 of 22

porno" once in Niagara Falls.

See Trial Doc. No. 52 at 58-59,

16-25; 59, l.3
On May 25, 2012, Biron flew to Buffalo with R.B., rented a
car, and drove to Canada to pick up Watson at his mother's
house.

Biron then drove Watson and R.B. to a hotel in Niagara

Falls, Ontario, where the three would stay together in a room
through Monday, May 28, 2012.

Once in their hotel room, they

began to drink alcohol and smoke marijuana.

Soon thereafter at

Biron's insistence, Watson had sex with R.B. and Biron proceeded
to film it.

Over the next four days, Watson and R.B. had sex on

several more occasions, and Biron again captured their activity
on video at least twice.

Those video recordings were later

recovered from Biron's computer during the government's
investigation.

The government also recovered a digital

photograph from Biron's computer that depicted Biron and R.B. in
bed with Watson while positioned around Watson's nude, erect
penis.
At trial, the three videos and the photograph were shown to
the jury and authenticated by Watson.

The three videos clearly

depict Watson and R.B. engaged in sexual intercourse, and Biron
can be heard commenting and laughing throughout two of them.
Biron's trip to Canada served as the basis for Count One,

3 Citations to the trial transcript are in the following format.
Doc. No. [number] at [page], [line].
3

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 4 of 22

transportation with intent to engage in criminal sexual

activity.

The theory on which Biron was convicted on that count

was that the purpose of the trip to Canada was to produce child
pornography.

The three videos of Watson and R.B. served as the

primary support for Counts Two through Four.

The photograph of

Watson, R.B. and Biron in bed served as the basis for Count
Five.
The government presented several other witnesses in
addition to Watson to support its contention that Biron intended
to produce child pornography.

Among the government's witnesses

were Robert Hardy, Brandon Ore, and Lisa Brien, who were all
former friends or acquaintances of Biron.

All three testified

as to instances in which Biron discussed with them her own plan
to film R.B.'s first time having sex.4

All of their discussions

occurred after Biron and R.B.'s trip to Canada, and both Hardy
and Ore testified that the discussions took place while viewing
one of the videos of R.B. and Watson having sex.
B.

Brandon Ore - Count Six
The events giving rise to Count Six took place during the

summer of 2012, at the Biron residence in Manchester, NH.
involved eighteen year-old Brandon Ore.

They

At trial, Ore testified

4 See Trial Doc. No. 52, at 139, 19 -142 (Brandon Ore); 187, 3-22
(Robert Hardy); 208, 5-25; 209, 16-21 (Lisa Brien).
4

Case l:16-cv-00108-PB Documents Filed 10/02/17 Page 5 of 22

that he first became acquainted with Biron in July 2012 after
responding to a Craigslist advertisement that Biron had posted.
According to Ore, the advertisement read: "two girls looking to
party, 18, 33."

See Trial Doc. No. 52, at 122, 1-2.

After

exchanging several emails, Ore and Biron met at Biron's home and
had sex.

Upon leaving the next morning, Ore was told by Biron

to come back sometime and bring a friend.
A few days later, Ore returned with a male friend.

The two

were greeted by Biron and introduced to R.B., who Biron
identified as her roommate.

That night, Ore had sex with R.B.,

and Biron had sex with Ore's friend.

This arrangement was

repeated over the next few weeks on five or six occasions.
Eventually, Ore moved in with Biron and R.B., and began dating
R.B.
Ore further testified that Biron was supportive of his
sexual relationship with R.B. during this time, and even
"encouraged" it.

On one particular occasion, as he recounted at

trial, Biron "suggested" that R.B. and Ore have sex on the
living-room couch in front of Biron.

R.B. and Ore agreed, and

Biron proceeded to film the two with her iPhone.

At trial, the

video was played for the jury, and it clearly depicted Ore and
R.B having sex.
with Ore.

Biron can be heard in the background conversing

Both the video and Ore's testimony served as the

5

Case l:16-cv-0G108-PB Documents Filed 10/02/17 Page 6 of 22

basis for Count Six, which charged Biron with sexual
exploitation of R.B.
C.

Biron - Counts Seven and Eight
Count Seven was based on a video depicting Biron performing

oral sex on R.B. and Count Eight was based on Biron's possession
of the previously mentioned videos and photograph.
The events giving rise to Count Seven took place in Biron's
own living room on May 18, 2012.

At trial, portions of the

video were played for several witnesses for authentication
purposes, and then showed to the jury.

The video began with a

shot of an empty living room, and eventually two female voices
could be heard in the background.

Michael Biron, who is R.B.'s

father and Lisa Biron's estranged husband, first identified the
two female voices in the video as belonging to his ex-wife and
his daughter.

He then identified the setting depicted in the

video as being the Biron residence in Manchester, NH.

The video

was then played for the jury, and depicted one female performing
digital penetration and then oral sex on the other in the
setting first identified by Michael Biron as Biron's home.

The

government presented additional evidence to. identify Biron as
the female performing the oral sex, and R.B as the female
receiving it.
Furthermore, Jim Scripture, a forensic computer examiner
with the F.B.I., testified that he extracted this video from an
6

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 7 of 22

iPhone backup folder located on Biron's computer.

By reading

the data associated with the file, Scripture testified, he was
able to determine that the video was filmed with an iPhone, on
May 18, 2012, at Biron's address in Manchester, NH.
D.

Biron's Defense
Attorney James Moir represented Biron at trial.

Biron's

defense to Count One, the transportation charge, was that she
lacked the required criminal intent.

Moir argued that the

government had failed to prove that Biron traveled to Canada for
the purpose of creating child pornography.

He argued that the

video recordings of R.B. were merely incidental to the trip,
rather than its object, and they were the product of an
impulsive act rather than a preconceived plan.
No. 53 at 61,- 4-15; 66, 8-11.

See Trial Doc.

In supporting his argument, Moir

addressed the testimony of Ore, Watson, Hardy, and Brien, all of
whom had apparently testified to Biron's alleged plan to film
R.B. having sex in Canada.

Moir attacked the credibility of

each witness in turn, and argued that there was a lack of any
clear-cut evidence of Biron's criminal purpose in traveling to
Canada.
For example, with respect to Kevin Watson, Moir argued in
his closing argument that Watson had a motive to provide
favorable testimony to the government so to mitigate his own
criminal liability.

He emphasized the fact that the first time
7

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 8 of 22

Watson had mentioned Biron's plan to "make a porno" to anyone
was a few days before trial during an interview with assistant
U.S. Attorneys, despite being interviewed extensively by
Canadian authorities beforehand.
9-25, 64, 1-6.

See Trial Doc. No. 53 at 63,

Similarly, with respect to Lisa Brien and

Brandon Ore, Moir emphasized that neither had actually said that
Biron told them the reason she went to Canada was to make the
videos of R.B.

See Trial Doc. No. 53 at 62, 22-25; 63, 1-3.

Likewise, Biron's defense to Counts Two through Seven was
that the government had not met its burden of proof.

Moir

argued that Biron did not "cause" or induce R.B. to engage in
the sexual conduct captured on video, as required by statute,
but rather R.B. engaged in it voluntarily.
53 at 67, 15-17; 68, 11-23.

See Trial Doc. No.

Biron did not mount a specific

defense to Count Eight, the possession of child pornography
charge.
E.

Procedural History
On January 10, 2013, a jury convicted Biron on all charges

after a three-day trial.

Following her sentencing in May -2013,

Biron appealed to the First Circuit, which rejected her
arguments and affirmed her conviction in November 2014.

On

March 23, 2015, the U.S. Supreme Court denied Biron's petition
for certiorari.

Biron v. United States, 135 S.Ct. 1576

(Mem)(2016).
8

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 9 of 22

On March 23, 2016, Biron filed the instant motion to
vacate, set aside, or correct her sentence, and receive a new
trial.

See Doc. No. 1-1.

She further requested an evidentiary

hearing, and permission to depose trial counsel.

See id.

On

the same day, she filed an assented-to motion to stay
See Doc. No. 2.

proceedings for 120 days, which I granted.

The

basis for Biron's motion was to allow her new counsel time to
obtain complete trial discovery from the government, review the
material, and provide that material to an independent
investigator and a psychiatrist.

See id.

Biron, further

requested freedom to supplement the record during pendency of
the stay with any fruits of that investigation.
On June 10, 2016, I granted Biron's motion to extend the
previous 120-stay by six months.

See Doc. No. 4.

On December

8, 2016, Biron filed a status report indicating that her
counsel's independent investigation into the matter would be
completed by the end of December 2016.

To date, Biron has not

attempted to supplement the record.

II.

STANDARD OF REVIEW

The Sixth Amendment guarantees only an "effective defense,
not necessarily a perfect defense or a successful defense."
Scarpa v. DuBois, 38 F.3d 1, 8 (1st Cir. 1994).

To succeed on a

claim of ineffective assistance of counsel, a petitioner must
9

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 10 of 22

show both that "his attorney's performance was deficient under
an objective standard of reasonableness; and that his defense
suffered prejudice as a result."

Rivera-Rivera v. United

States, 827 F.3d 184, 187 (1st Cir. 2016), cert denied, 137 S.
Ct. 696 (2017)

(citing United States v. Carriqan, 724 F.3d 39,

44 (1st Cir. 2013), and Strickland v. Washington, 466 U.S. 668,
687-88 (1984)); see also Kimmelman v. Morrison, 477 U.S. 365,
382 (1986)

(adopting the two-prong Strickland standard for

ineffective-assistance claims on habeas review).

To establish

prejudice, a petitioner must demonstrate a reasonable
probability

that the result of the criminal proceeding would

have been different' if counsel had performed as the
[petitioner] asserts he should have."

Rivera-Rivera, 827 F.3d

at 187 (quoting Hensley v. Roden, 755 F.3d 724, 736 (1st Cir.
2014)) .

That probability, "must be substantial, not just-

conceivable," Rivera-Rivera, 827 F.3d at 187, and it is
reasonable only to the extent that it is "sufficient to
undermine confidence in the outcome."
562 U.S. 86, 104, 112 (2011).

Harrington v. Richter,

Furthermore, "[a] defendant's

failure to satisfy one prong of the Strickland analysis obviates
the need for a court to consider the remaining prong."

Tevlin

v. Spencer, 621 F.3d 59, 66 (1st Cir. 2010).

Thus, a reviewing

court is free to address either prong first.

Carrigan, 724 F.3d

44; see Rivera-Rivera, 827 F.3d at 187.
10

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 11 of 22

III.

ANALYSIS

Biron essentially makes two blended arguments in support of
her ineffective assistance of counsel claim.

First, Biron

argues that her trial counsel was constitutionally deficient in
failing to "investigate, or present, any mental health-related
evidence or defense."

See Doc. 1-1 at 12.

Second, Biron takes

her trial counsel to task for "rushing to trial" without
investigating any of the government's witnesses. See Doc. 1-1 at
21.

I address and reject each argument in turn.

I then turn to

Biron's requests to depose trial counsel and for an evidentiary
hearing, both of which I deny.
A.

Failure to Investigate Mental Health Based Defense
Biron's claim that Moir was ineffective in failing to

properly investigate a possible mental health based defense
fails because she cannot demonstrate that Biron was prejudiced
by counsel's allegedly deficient representation.
Although federal law recognizes that insanity can be an
affirmative defense to a federal prosecution, see 18 U.S.C. §
17, Biron has failed to point to virtually any evidence to
support her conclusory assertion that an insanity defense would
have been available to her had Moir pursued the issue prior to
trial.

The only objective evidence of any alleged mental

disease Biron offers is her post-conviction psychological
11

Case l:16-cv-0Q108-PB Document 9 Filed 10/02/17 Page 12 of 22

evaluation, which was prepared by Dr. Thomas Burns prior to
sentencing.

As the government correctly points out, however,

Dr. Burns did not find that Biron suffered from any kind of
psychological disorder that may have precluded her from being
See Doc. No. 7

able to make rational and informed calculations.
at 3; Trial Doc. No. 54 at 49, 3-22.

Dr. Burns' report

predominantly covered the personal crisis that Biron endured
See

when her husband abandoned her for the second time’ in 2011.
Doc. No. 1-1 at 17.

The period involved extraordinary stress,

financial difficulty, and a dramatic relapse into substance
abuse, which culminated during the period discussed above.
id.

See

Dr. Burns' report discussed this "collapse" rather

extensively, but he made no official diagnosis.

Because Biron

has offered no further information regarding her mental health,
despite having ample time to supplement the record, this first
argument fails.
Biron also argues that Moir's performance was
constitutionally deficient because he failed to present a
"diminished capacity defense."

See Doc. No. 1-1 at 12.

argument is doomed for similar reasons.

This

A defendant may only

offer psychiatric evidence of a mental-condition short of
insanity where the evidence is relevant to negate the requisite
criminal intent, and the defendant is charged with a specific-

12

Case 1:16-cv-0G1G8-PB Document 9 Filed 10/02/17 Page 13 of 22

intent crime.5

United States v. Brown, 326 F.3d 1143, 1147 (10th

Cir. 2003); see United States v. Ahrendt, 560 F.3d 69, 76 (1st
Cir. 2009); United States v. Schneider, 111 F.3d 197, 201 (1st
1997) .

By contrast, when a defendant has been charged with a

general-intent crime, such evidence is generally inadmissible.6
Other courts have noted that even when dealing with specificintent crimes, "district courts must carefully scrutinize
proposed psychiatric evidence" to ensure that it is being
offered to negate intent rather than to justify or mitigate the
crime.

Brown, 326 F.3d at 1147.

This is due to the heightened

risk of confusing or misleading the jury that such evidence
presents.

See id.

(citing Cameron, 907 F,2d at 1067).

5 I use "specific intent" in accordance with its most common
usage, as "designat[ing] a special mental element which is
required above and beyond any mental state required with respect
to the actus reus of the crime," 1 Wayne R. LaFave, Subst. Crim.
L. § 5.2(e) (2d ed.), Westlaw (database updated Oct. 2016)
(citing Carter v. United States, 530 U.S. 255 (2000)),
corresponding loosely with "purpose." United States v. Bailey,
444 U.S. 394, 405 (1980).
6 Although the First Circuit has never explicitly announced this
specific/general intent delineation, it has never rejected it,
and it is clearly the approach taken in the majority of federal
circuits. See, e.g., United States v. Brown, 326 F.3d at 1147
n.2 (10th Cir. 2003); United States v. Cameron, 907 F.2d 1051
(11th Cir.1990); United States v. Pohlot, 827 F.2d 889, 897 n.4
(3d Cir.1987). Moreover, it is a sound proposition of law,
because "general intent" only requires "proof of knowledge with
respect to the actus reus of the crime," Carter v. United
States, 530 U.S. 255, 269 (2000), a mental abnormality not
amounting to insanity could virtually never negate general
intent. United States v. Bueno, No. 04-40023, 2006 WL 240060,
at *4 (D. Mass. Jan. 5, 2006) (citing Poholt, 827 F.2d at 897
n.4).
13

Case l:16~cv-00108-PB Document 9 Filed 10/02/17 Page 14 of 22

Here, Count One was Biron's only crime of specific intent,
so any psychological evidence regarding Biron's mental stability
would have only been admissible if relevant to negate the intent
required under §2423 (a).7
transports [a minor]

See 18 U.S.C. § 2423(a)' (" [K] nowingly

. . . with intent that the [minor] engage

in . . . any [criminal sexual activity]").

Yet the only

objective evidence offered by Biron, Dr. Burns' report, does
nothing to negate the intent required by this statute.

Instead,

it is only relevant for mitigation purposes, as a potential
explanation or excuse for Biron's conduct.
Nothing in record suggests that Biron's mental condition
during the pertinent timeframe could have precluded her from
acting with the criminal purpose identified in § 2423(a).
Beyond Dr. Burn's psychiatric report, Biron offers nothing more
than generalized, conclusory assertions.

Thus, she has failed

to demonstrate that, had a psychiatric evaluation been arranged

7 Biron's seven other crimes were general-intent crimes. The
portion of 18 U.S.C. § 2251(a) that served as the basis for
Counts Two through Seven requires only that the defendant
"knowingly" persuade, or otherwise induce or entice a minor to
engage in sexually explicit conduct. See United States v.
Carroll, 105 F.3d 740, 743 (1st Cir. 1997). In other words, the
defendant need only have knowledge of the actus reus; no further
proof of intent or purpose is required. See id. at 744-45.
Moreover, 18 U.S.C. § 2252A(a) (5) (B) , which served as the basis
for Count Eight, requires only that the defendant "knowingly
possess[] ... an image of child pornography." §
2252A(a)(5)(B). Similarly, this requires only general knowledge
of the act that constitutes the crime.
14

Case.l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 15 of 22

by Moir, there is a reasonable probability the results would
have been admissible at trial.

See Brown, 326 F.3d at 1147-48

(holding psychiatric evidence that defendant was "unable to make
'correct choices r

n

as inadmissible, because it did nothing to

negate specific intent); United States v. Kepreos, 759 F.2d 961,
964 (1st Cir. 1985)

(holding psychiatric evidence as to a

defendant's "lack of awareness" as to the criminal character of
the fraudulent schemes for which he was charged inadmissible, as
it did nothing to negate specific intent and was misleading).
Thus, in a case such as this, the proper time to raise
diminished mental capacity was at sentencing and Moir did an
effective job in raising the issue at a time when it could
properly be considered.

Because Biron has failed to demonstrate

how psychiatric evidence could have been used at trial, she has
failed to prove that she was prejudiced by Moir's alleged
failure to properly investigate a possible diminished capacity
defense.
Finally, to the extent that Biron argues that her case was
"close," and that I should therefore apply a "comparatively
low[er]" measure of prejudice, I am unpersuaded.

See Doc. No. 8

at 6 (citing Dugas v. Coplan, 428 F.3d, 317, 336 (1st Cir.
2005)); Doc No. 1-1 at 29-30.

The evidence presented against

Biron at trial was overwhelming.

The jury's verdict was quickly

returned and her conviction is well supported by the record.
15

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 16 of 22

Thus, her case is a far cry from the arson conviction presented
in Dugas, which the appellate court aptly characterized as
"lay[ing] on a knife edge."

See Dugas, 428 F.3d at 336.

In sum, Biron has failed to demonstrate a reasonable,
substantial probability that, had Moir investigated the
viability of an insanity or other mental-health based defense,
her trial would have resulted in a different outcome. See
Rivera-Rivera, 827 F.3d at 187.

Accordingly, her argument fails

because she cannot satisfy the prejudice prong of the Strickland
analysis.

See Rivera-Rivera, 827 F.3d at 187; Carrigan, 724

F.3d at 44
B.

Further Investigate/ Rush to trial
Biron next argues that Attorney Moir's representation was

constitutionally deficient due to his failure to "investigate
any of the government's witnesses" or to conduct his own
independent investigation.

See Doc. No. 1-1 at 21.

It appears

that Biron attributes this failure in part to Moir's alleged
decision to "rush to trial."

See id.

Once again, this argument

fails because Biron cannot determine that she was prejudiced by
counsel's allegedly ineffective representation.

See Rivera-

Rivera, 827 F.3d at 187; Carrigan, 724 F.3d at 44
Biron argues that Moir failed to investigate and interview
the government's so-called "specious" witnesses prior to trial
in order to obtain additional impeachment material or
16

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 17 of 22

exculpatory evidence.

See Doc. 1-1 at 20, 24.

According to

Biron, Kevin Watson and Brandon Ore were particularly
susceptible to impeachment, due to pending criminal proceedings
against them and unidentified, inconsistent statements they
See Doc. 1-1 at 21-22.

purportedly made days before trial.

She

attributes Moir's failure to investigate these matters to an
alleged strategic blunder of "rushing to trial" in order to
"catch the government off guard."

See Doc. 1-1 at 27, 29-30.

As a result, Biron argues, Moir was ill-equipped to favorably
develop the testimony of these witnesses and others on crossexamination. See Doc. 1-1 at 24, 27.
This claim finds no support in the record, which shows that
Moir effectively cross-examined Watson and Ore on many of the
points Biron now raises. See Trial Doc. No. 52 at 107, 6-25;
107, 15-25; 108, 1-9; 111, 8-22 (Kevin Watson); 175, 19-25
(Brandon Ore).

Moreover, Biron offers only the chronology of

her case to support her claim that Moir "rushed to trial," which
I find unpersuasive. See Doc. No. 1-1 at 26.
■ But even assuming both claims to be true, Biron has offered
no showing of prejudice beyond vague and conclusory assertions,
such as: "[a]ny additional evidence ... to further impeach
these witnesses . . .[or] to contradict these witnesses . .
would have probably changed the outcome of this trial."
No. 1-1 at 30.

Doc.

She has utterly failed to identify what this
17

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 18 of 22

Nor does she identify any

"additional evidence" may entail.

specific fact that Moir should have elicited on crossexamination of Watson or Ore, who she correctly identifies as
having been "central" to the government's case.
1 at 27.

See Doc. No. 1-

Such poorly supported arguments are simply

insufficient to give rise to a reasonable probability that had
Moir pursued an independent investigation into the government's
witnesses, the outcome of Biron's trial would have been
different.

Thus, I reject Biron's claim of ineffective

assistance regarding Moir's alleged failure to investigate the
government's witnesses and his alleged haste in going to trial.
C.

Requests for Evidentiary Hearing and Discovery
1.

Evidentiary Hearing

Biron also requests an evidentiary hearing.
1 at 3b.

See Doc. No. 1-

Because she has failed to meet her burden of establishing

the need for a hearing, however, I deny her request.

A petitioner

seeking relief under § 2255 "is not entitled to an evidentiary
hearing as a matter of right."
470, 477 (1st Cir. 1998)
223, ' 225

(1st Cir.

David v. Unites States, 134 F.3d

(citing United States v. McGill, 11 F.3d

1993) ) .

Rather,

the petitioner bears the

"fairly heavy" burden of establishing the need for a hearing.
McGill, llF.3d at 225; see DeCologero v. Unites States, 802 F.3d
155, 167 (1st Cir. 2015) .
petition

without

an

Thus, a district court may deny § 2255

evidentiary
18

hearing

when

"the

movant's

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 19 of 22

allegations, even if true, do not entitle him to relief," or when
those allegations "need not be accepted as true because they state
conclusions

instead

of

facts,

contradict

the

record,

802 F.3d at 167

or

are

inherently incredible."

DeCologero,

(internal

quotation marks omitted).

Furthermore, when the judge tasked with

deciding a § 2255 motion is the same judge that presided over the
petitioner's underlying criminal case, "the judge is at liberty to
employ the knowledge gleaned during previous proceedings and make
findings based thereon without convening an additional hearing."
Id.

(quoting McGill, 11 F.3d at 225).
Here, Biron. has failed to demonstrate the need for an

evidentiary hearing.

As I have explained, even assuming her

factual allegations to be true, Biron has been unable to
identify anything beyond conclusory assertions to substantiate
her claims.

In light of the record before me, which includes

the specific, non-conclusory findings of Biron's examining
psychologist, there is no reason to believe that an evidentiary
hearing will uncover anything not previously available to Biron
at the time her § 2255 petition was prepared.

Moreover, I

previously granted Biron permission to supplement the record in
this matter.

Despite good-faith assurances that she would do

so, Biron has submitted no affidavits or additional mentalhealth material challenging the accuracy of any information

19

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 20 of 22

presented at trial or sentencing. 8
22 n.5, 23 n.7.

See Doc. No. 1-1 at 19 n.4,

Lastly, Biron has presented no issues that make

the existence of prejudice vel non uniquely difficult to
evaluate without an evidentiary hearing, e.g. the credibility of
an uncalled witness.

See Rivera Alicea v. United States, 404

F.3d 1, 3-4 (1st Cir. 2005); see also Kingsberry v. United
States, 202 F.3d 1030, 1032-33 (8th Cir. 2000)(holding that an
evidentiary hearing is only necessary where "the court is
presented with some reason to question the evidence's
credibility.").

Thus, an evidentiary hearing in this matter

would serve no "useful purpose," and I accordingly deny Biron's

8

To the extent Biron's petition can be read to suggest that an
evidentiary hearing is necessary in order to obtain information
from certain government witnesses, who are now allegedly
unresponsive to undersigned counsel's investigative attempts, I
find her argument unavailing. See Doc. No. 8 at 1-2.
Specifically, Biron has notified the court of the difficulty
encountered by her undersigned counsel's attempts to obtain
information from Kevin Watson, Brandon Ore, and Rob Hardy. See
Doc. No. 8 at 1-2. She contends that the futility of her own
investigation into those witnesses "further demonstrate[s] the
ineffective assistance of counsel argued in her original
petition." See id. Biron has provided no affidavit detailing
the circumstances of undersigned counsel's attempts to interview
these witnesses, however, nor has she been able to demonstrate
the need for such interviews. Accordingly, these purported
investigative difficulties alone fail to demonstrate the need
for an evidentiary hearing. See Porcaro v. United States, 832
F.2d 208, 211 (1st Cir. 1987) (concluding that § 2255 petitioner
failed to meet his burden of establishing the need for an
evidentiary hearing, where he offered no affidavits detailing
the circumstances of his efforts and inability to secure
supportive affidavits from potential witnesses, or their
expected testimony).
20

Case l:16-cv-Q0108-PB Document 9 Filed 10/02/17 Page 21 of 22

request.

See McGill,

11 F.3d at 226 ("That undisputed facts may

plausibly be interpreted in different ways does not entitle an
interested litigant to an evidentiary hearing.").
2.

Request to Depose Counsel

Biron also seeks permission to depose trial counsel.
Doc. No. 1-1 at 31.

See

Because she has failed to demonstrate a

showing of "good cause" so to warrant such discovery, I deny her
request.

Petitioners seeking relief under § 2255 are not

entitled to discovery as a matter of course.

See- 28 U.S.C. §

2255, Pt. VI Ch. 153, R. Governing Sec. 2255 Proc. 6(a); Donald
v. Spencer, 656 F.3d 14, 15-16 (1st Cir. 2011)

(discussing Rule

6(a) of the Rules Governing Section 2254 Proceedings, which is
substantively the same rule governing discovery in § 2255
cases) .

Instead, Rule 6 of the Rules Governing Section 2255

Proceedings requires the requesting party to show "good cause"
and provide reasons for the request.
Proc. 6(a).

See R. Governing Sec. 2255

"Good cause" in this context requires "specific

allegations that give a court 'reason to believe that the
petitioner may, if the facts are fully developed, be able to
demonstrate that he is . . . entitled to relief.
Bender, 507 F.3d 50, 60 (1st Cir. 2007)

t ft

Teti v.

(quoting Bracy v.

Gramley, 520 U.S. 899, 908-09 (1997)).
Biron has made no such showing.

As I have explained, even

assuming that Attorney Moir's conduct was constitutionally
21

Case l:16-cv-00108-PB Document 9 Filed 10/02/17 Page 22 of 22

deficient under an objective standard of reasonableness, Biron
has failed to demonstrate that she suffered prejudice as a
She has dually failed to demonstrate how deposing Moir

result.

could possibly uncover the prejudice not now apparent.

Thus, 'I

cannot see how the discovery Biron seeks is capable of curing
her petition's deficiencies.
depose trial counsel.

Accordingly, I deny her request to

See Teti, 507 F.3d at 60.

IV.

CONCLUSION

For these reasons, I deny Biron's motion for relief under §
2255.

See Doc. No. 1-1.

Because Biron has failed to make a

substantial showing of the denial of a constitutional right, I
also decline to issue a certificate of appealability.

See 28

U.S.C. § 2253(c)(2); R. Governing Sec. 2255 Proc. 11; First Cir.
LR 22.0.

The clerk of court shall enter judgment accordingly

and close this case.
SO ORDERED.
/s/Paul Barbadoro
Paul Barbadoro
United States District Judge
October 2, 2017
cc:

Seth R. Aframe, Esq.
Charles J. Keefe, Esq.

22

